Review of Medicare Payments for Beneficiaries With Institutional Status, Humana Health Plan, Inc., Phoenix, Arizona
Department
of Health and Human Services
"Review of Medicare Payments for Beneficiaries with Institutional Status,
Humana Health Plans, Phoenix, Arizona," (A-05-01-00095)
June 25, 2002
Complete
Text of Report is available in PDF format (353kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine if payments to Humana (Contract H0307) were appropriate for
beneficiaries reported as institutionalized.  We determined that Humana
received Medicare overpayments totaling $18,645 for 37 beneficiaries incorrectly
reported as institutionalized during the period January 1, 1998 through December
31, 2000.  The 37 beneficiaries include 23 that did not meet the 30-day
residency requirement in an institutional facility, five beneficiaries for whom
Humana staff could provide no institutional residency information and 9 beneficiaries
residing in non-certified facilities.